<html>
<title> - 2010 CENSUS: RECRUITING, HIRING AND TRAINING A DIVERSE WORKFORCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    2010 CENSUS: RECRUITING, HIRING AND TRAINING A DIVERSE WORKFORCE 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2007

                               __________

                           Serial No. 110-29

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

38-582 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




























             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2007....................................     1
Statement of:
    Kincannon, Charles Louis, Director, U.S. Bureau of the 
      Census; and Mathew J. Scire, Director, Strategic Issues, 
      U.S. Government Accountability Office......................    14
        Kincannon, Charles Louis.................................    14
        Scire, Mathew J..........................................    21
    Rosales, Rosa, national president, League of United Latin 
      American Citizens; Leigh A. McGee, Chair, Census Advisory 
      Committee on the American Indian and Alaska Native 
      Populations; Dr. Bernie Miller, Chair, Census Advisory 
      Committee on the African American Population; Deeana L. 
      Jang, policy director, Asian and Pacific Islander American 
      Health Forum; and Stephen J. Pemberton, chief diversity 
      officer and vice president, diversity and inclusion, 
      Monster Worldwide, Inc.....................................    50
        Jang, Deeana L...........................................    90
        McGee, Leigh A...........................................    59
        Miller, Dr. Bernie.......................................    75
        Pemberton, Stephen J.....................................   100
        Rosales, Rosa............................................    50
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    13
    Jang, Deeana L., policy director, Asian and Pacific Islander 
      American Health Forum, prepared statement of...............    92
    Kincannon, Charles Louis, Director, U.S. Bureau of the 
      Census, prepared statement of..............................    16
    McGee, Leigh A., Chair, Census Advisory Committee on the 
      American Indian and Alaska Native Populations, prepared 
      statement of...............................................    61
    Miller, Dr. Bernie, Chair, Census Advisory Committee on the 
      African American Population, prepared statement of.........    77
    Pemberton, Stephen J., chief diversity officer and vice 
      president, diversity and inclusion, Monster Worldwide, 
      Inc., prepared statement of................................   103
    Rosales, Rosa, national president, League of United Latin 
      American Citizens, prepared statement of...................    53
    Scire, Mathew J., Director, Strategic Issues, U.S. Government 
      Accountability Office, prepared statement of...............    23
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     9


    2010 CENSUS: RECRUITING, HIRING AND TRAINING A DIVERSE WORKFORCE

                              ----------                              


                        THURSDAY, JULY 26, 2007

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Turner, and Maloney.
    Also present: Representative Davis of Virginia.
    Staff present: Tony Haywood, staff director/counsel; Jean 
Gosa, clerk; Alissa Bonner, professional staff member; Nick 
Ballen, intern; Leneal Scott, information systems manager; 
Jennifer Safavian, minority chief counsel for oversight and 
investigations; Keith Ausbrook, minority general counsel; Jim 
Moore, minority counsel; Allyson Blandford and Jay O'Callaghan, 
minority professional staff members; Benjamin Chance, minority 
clerk; and Bill Womack, minority assistant clerk.
    Mr. Clay. The Information Policy, Census, and National 
Archives Subcommittee, Oversight and Government Reform 
Committee will come to order.
    Today's hearing will examine the Census Bureau's effort to 
recruit, hire and train a diverse work force in connection with 
the 2010 census and related issues.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements followed by 
opening statements not to exceed 3 minutes by any other member 
of the committee who seeks recognition.
    Without objection, Members and witnesses may have 5 
legislative days to submit a written statement or extraneous 
materials for the record.
    I will now start with my opening statement and welcome 
everyone to today's oversight hearing on Recruiting, Hiring and 
Training a Diverse Workforce for the 2010 census.
    In its strategic plan for 2005 to 2007, the Census Bureau 
states that ``As the Nation becomes more diverse, the Census 
Bureau's staff must reflect the increasing diversity of the 
American population if it's to do its job effectively.''
    The purpose of today's hearing is to help Congress evaluate 
whether or not the Census Bureau is on target to achieve this 
stated goal. We will examine the Bureau's plan to ensure a 
diverse work force from the enumerators to its senior level 
management.
    Nineteen percent is African American; 5 percent is 
Hispanic/Latino; 1 percent is American Indian/Alaska Native; 
and less than 1 percent is Native Hawaiian or Pacific Islander.
    Currently, the Bureau has 13,761 employees with minorities 
comprising 2,246 of the Bureau's total work force. The 
statistics are equally disappointing for the senior levels, 
grades 13 through the senior executive service, where 
minorities make up only 28 percent of this group, and there's 
not one Native Hawaiian or Pacific Islander according to the 
Bureau's recent work force profile.
    We will also review the agency's record involving minority 
contracting. GAO estimates that of the $11.3 billion to be 
spent on the 2010 census, $1.9 billion or 17 percent will be 
spent on the 7 largest contractors. This is a significant 
expenditure of taxpayer dollars. Therefore, Congress is 
obligated to ensure that minority businesses fully participate 
in contracting and subcontracting opportunities for the 
decennial census.
    I want to thank in advance all of our witnesses for 
appearing today and look forward to their testimony.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Now I will yield to the distinguished ranking 
member, Mr. Turner of Ohio.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank you 
for your leadership in holding this hearing considering the 
Bureau's goal of recruiting, hiring and training a diverse work 
force for the 2010 census.
    Today, we will examine a key challenge facing the Census 
Bureau, the importance of producing a large, diverse and 
qualified work force to implement the 2010 census. This is a 
significant step in achieving as complete and accurate a census 
as possible.
    Hiring and training the nearly 600,000 workers needed for 
the upcoming census will be one of the largest and most complex 
tasks undertaken by any entity, public or private, in our 
Nation. It will make the Census Bureau temporarily one of our 
country's largest employers.
    As the Nation is becoming more diverse, it will need a more 
ethnically diverse census work force especially in the so-
called hard to count communities where there are varying 
language and cultural barriers.
    One of the proven success stories from the 2000 census was 
the partnership and outreach program which was credited by many 
for helping to achieve an accurate count in culturally diverse 
communities. Establishing partnerships within these areas is 
proven to reduce costs and improve accuracy. As we prepare for 
the 2010 census, we will need to buildupon the successes of the 
2000 program.
    GAO recently issued a report outlining challenges in 
hiring, recruiting and training workers for the 2010 census. 
This report called into question many of the Bureau's plans and 
strategies as it pertains to the 2010 decennial work force. I 
am concerned that many of the recommendations made by the GAO 
have not properly addressed by the Bureau.
    Mr. Chairman, there are many stakeholders that sit in our 
hearing today. As you know, the results of the decennial census 
will affect all levels of government and the private sector. As 
a result, it is important that we look at the Bureau's plan for 
hiring, retaining and training the 2010 work force, and I look 
forward to a productive hearing.
    I also want to apologize in that I am participating in 
markup discussions in another committee, so I won't be able to 
stay. But I have the written testimony, and I will certainly be 
looking forward to reviewing the testimony.
    I do appreciate the chairman's leadership in what is a very 
important issue. Thank you.
    [The prepared statement of Hon. Michael Turner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you, Mr. Turner.
    We know that Mr. Davis of Virginia will be joining us 
shortly, and he can fill in adequately. Thank you.
    The subcommittee will now hear testimony from the witnesses 
before us today. On our first panel, we will hear from the 
Honorable Charles Louis Kincannon, Director of the U.S. Census 
Bureau, and Mathew Scire, Director of Strategic Issues at GAO.
    Thank you, Director Kincannon and Mr. Scire, for appearing 
before the subcommittee today.
    I will stop there and recognize the ranking member who has 
joined us today, Mr. Davis of Virginia for an opening 
statement.
    Mr. Davis of Virginia. Mr. Chairman, thank you very much. 
We just concluded another hearing downstairs. I want to thank 
you for holding the hearing.
    At its root, the census in 2010 will be an opportunity for 
the Federal Government to talk to America. This is our once-in-
a-decade chance to learn how many Americans there are and where 
they are. Congress then uses that information to apportion 
seats to each State for the following decade, to drive Federal 
grant formulas and for a myriad of other purposes.
    So it is very important when the Bureau goes out to talk to 
Americans that they speak America's language. The Census Bureau 
has to understand America's neighborhoods and act in respectful 
and trustworthy ways in those neighborhoods. In a nutshell, 
that is why diversity matters in hiring and training at the 
census.
    In some circles, diversity has taken on a bad connotation. 
Others see it as mired in political correctness. But the 
American business community has learned neither of these 
perspectives is accurate.
    Diversity today isn't about social activism. It is about 
developing the best possible business strategy.
    It isn't about meeting quotas. It is about providing the 
highest quality customer service.
    It isn't just about being responsive to the community. It 
is about being innovative in the national marketplace.
    My hope is that the Bureau is developing the best business 
strategy possible to reach their diverse customers. I hope they 
are planning to provide unparalleled customer service despite 
some obvious time constraints. Most important, I hope the 
Bureau is being innovative as they think about how to have this 
essential decennial conversation with America.
    I look forward to hearing from these witnesses today as we 
discuss these important issues.
    Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you very much, Mr. Davis.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative.
    You both will have 5 minutes to make an opening statement. 
Your complete written testimony will be included in the hearing 
record.
    The yellow light, as you both are familiar, will indicate 
you have 1 minute remaining. The red light will indicate that 
your time has expired.
    Thank you. Director Kincannon, you may proceed.

STATEMENTS OF CHARLES LOUIS KINCANNON, DIRECTOR, U.S. BUREAU OF 
 THE CENSUS; AND MATHEW J. SCIRE, DIRECTOR, STRATEGIC ISSUES, 
             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

              STATEMENT OF CHARLES LOUIS KINCANNON

    Mr. Kincannon. Thank you, Mr. Chairman, for this 
opportunity to discuss the U.S. Census Bureau's commitment to 
diversity.
    Diversity is who we are as a Nation and underscores the 
fundamental cultural values of our people. It is vital to the 
quality of the data we produce to maintain public trust and 
cooperation, starting with a work force that looks and sounds 
like America.
    To ensure the Census Bureau fulfills its commitments with 
regard to diversity, we have undertaken a number of 
organizational changes such as the establishment of a Diversity 
Program Office and the Diversity Council as well as other 
efforts.
    One of the most important long term strategies of ensuring 
a highly qualified, motivated and diverse work force is through 
opportunities specifically with recruitment and internships. 
The Census Bureau maintains a robust college recruitment 
program. Annually, we visit more than 70 colleges, nearly half 
of which are minority-serving institutions, to recruit entry 
level candidates for mission critical positions. Of those 
successfully recruited last year, nearly one-third were from 
minority-serving institutions.
    The Census Bureau uses internships to build a pipeline of 
diverse, highly qualified talent at the entry level. We have 
successfully worked with several organizations to reach out to 
minority students including Oak Ridge Associated Universities 
and the Hispanic Association of Colleges and Universities. This 
year, we recruited 35 interns. Twenty-five percent of African 
American, 22 percent, Hispanic, and 4 percent are Asian or 
Pacific Islanders.
    Our goal in recruiting these interns is to give them an 
opportunity to contribute in a meaningful way to our mission. 
Many interns have been surprised by the quality of their 
experience and that they were given the opportunity to do real 
work alongside professionals at the Census Bureau.
    Just as we are working to build this pipeline, we continue 
to recognize the importance of maintaining an increasing 
diversity among our current work force. As we fill vacancies, 
especially at higher grade levels, we are reaching out to 
stakeholders to promote these opportunities. Over the past 2 
years, approximately 63 percent of the vacated SES positions 
were filled by minorities or women.
    At the Census Bureau's current headquarters, nearly 30 
percent of the employees in the higher grades are members of 
minority communities. Of these employees, approximately 70 
percent are African American and 4 percent are Latino.
    It is important to buildupon the progress we have made over 
the past few years, especially as we begin gearing up for the 
decennial census. Our recruiting strategy for the 2010 census 
includes proven tools such as competitive pay, hiring 
exemptions, hiring locally from the communities we are counting 
and a census recruiting Web site and toll free jobs line.
    It is important to emphasize the significance of local 
recruitment and hiring. The Census Bureau intends to advertise 
jobs within each community, working with partner organizations 
and the media. In fact, we have posted a request for 
information in preparation for seeking small, disadvantaged 
businesses to help us purchase local media in order to place 
recruitment advertisements throughout the country.
    The Census Bureau is also working to emphasize diversity in 
our major 2010 census contracts. The recipients of each 
contract will be required to meet strong criteria for small, 
disadvantaged businesses which includes minority-owned 
businesses. For example, the requirement for the field data 
collection automation contract is 8 percent.
    We believe these aggressive strategies along with our 
outreach and partnerships effort will contribute to a more 
accurate census, especially in hard to count communities. We 
are relying on our partners to help promote census jobs within 
their communities. Our partnership and recruiting staff will be 
in close contact with our partners as they seek to publicize 
jobs and to find convenient and safe locations for testing and 
training.
    In an ever-changing Nation, we must continue to implement 
strategies that enhance our efforts to recruit a diverse and 
skilled work force. The Census Bureau is committed to this goal 
and to ensuring that we have the right work force to count 
every person living in America. We believe this goal is 
consistent with the highest ideals of our Nation and is 
ultimately the source of our strength as a people.
    Mr. Chairman, thank you for your support of these goals, 
and I would be happy to answer any questions.
    [The prepared statement of Mr. Kincannon follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Mr. Director.
    Mr. Scire, you may proceed.

                  STATEMENT OF MATHEW J. SCIRE

    Mr. Scire. Mr. Chairman, Mr. Davis, members of the 
subcommittee, thank you for the opportunity to be here today to 
discuss recruiting and outreach efforts of the Census Bureau.
    A little over 1 year from now, the Census Bureau will 
embark upon a huge recruitment campaign with a goal of hiring 
over 70,000 temporary field workers that will go door to door, 
verifying addresses in community after community. In 2010, the 
Bureau will hire over half a million field workers to followup 
on households that do not return census survey forms. This 
represents the largest ever peacetime mobilization.
    Over the next several years, the Census Bureau will also be 
relying on the work of contractors to provide automation and 
technical support, printing and other services as well as 
advertising and marketing. Likewise, the Bureau will promote 
the census in partnership with community-based organizations 
and others.
    We have reported that high-performance organizations are 
inclusive, drawing on the strengths of employees at all levels 
and of all backgrounds. We laid out nine practices for 
diversity management including the need for identifying and 
developing a diverse pool of talent for an organization's 
potential future leaders and attracting a supply of qualified, 
diverse applicants for employment.
    Our analysis of data from the Federal Personnel Data System 
shows that the proportion of women and minorities among the 
Bureau's SES ranks is in line with that for the Government as a 
whole. Also, the proportion of the Bureau's pool of GS-14s and 
15s from which the Bureau may draw future leaders also was in 
line with that for the Government as a whole.
    Earlier this year, we testified before this subcommittee on 
the Bureau's plans for recruiting and hiring of the massive 
work force of temporary field workers. The Bureau's priority is 
to reach out as broadly as possible to the diverse communities 
in the country because in order to have hundreds of thousands 
of temporary workers, it must attract several million 
applicants. Put simply, the Bureau plans to recruit five times 
as many applicants than it hires and hire twice as many people 
than it needs in anticipation of high levels of turnover.
    We agree that the Bureau's recruiting approach should be 
designed to ensure it selects a sufficient number of persons to 
complete the census. However, we recommend that the Bureau take 
a more targeted approach.
    For example, the Bureau could do more to study the factors 
that explain worker performance and willingness to stay 
throughout an operation. This analysis would permit the Bureau 
to identify the best approaches for attracting such workers, 
thereby reducing operational costs and recruiting and training 
expenditures by decreasing the need to recruit and hire 
additional workers. Likewise, such an approach can be 
undertaken while continuing to attract a diverse work force.
    The Bureau also plans a public awareness campaign as it did 
in the previous census. This campaign has two major parts: a 
paid advertising campaign and a partnership program where the 
Bureau works with governments, community-based organizations, 
the media and others to elicit public participation in the 
census particularly among hard to count populations.
    We reported that it is quite likely that the key census-
taking activities such as recruiting temporary census workers 
and encouraging people to complete their questionnaires would 
have been less successful had it not been for the Bureau's 
aggressive partnership efforts in 2000.
    Currently, the Bureau is considering proposals from 
contractors on carrying out a coordinated communications 
program. Among other things, the Bureau reports that it will 
consider each company's experience in reaching hard-to-count 
populations, as well the extent to which it promises to use 
subcontractors that are considered small, disadvantaged 
businesses, women-owned small businesses and other categories 
of small businesses.
    In summary, Mr. Chairman, for the Bureau to leverage the 
benefit of its diversity and outreach efforts, it will be 
important for it to follow through on its intentions to recruit 
a diverse work force and utilize the experience of a diverse 
pool of partners, including community groups, State and local 
governments and the private sector.
    As in the past, we look forward to supporting this 
subcommittee's oversight efforts to promote a timely, complete, 
accurate and cost-effective census.
    This concludes my opening remarks. Thank you again for the 
opportunity to speak today. I would be glad to take any 
questions you may have.
    [The prepared statement of Mr. Scire follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much for that testimony.
    I will start with Director Kincannon.
    The Census Bureau uses the Race and Ethnic Advisory 
Committees to advise it on decennial matters related to 
minority groups. The committees have made several 
recommendations regarding hiring, training and promotion of 
minority employees and contracting opportunities for the 2010 
census. Some view their work with the Bureau as somewhat 
successful while others believe the Bureau is not moving fast 
enough to act on the recommendations.
    Does the Bureau have a formal process for handling the 
recommendations of the REAC and, if so, please describe how it 
works?
    Mr. Kincannon. Yes, Mr. Chairman, we do have a process 
whereby the individual committees, making recommendations, make 
those recommendations in writing. They are reviewed by the 
appropriate staffs within the Census Bureau and up through the 
levels of management of the Census Bureau.
    In some cases, those are recommendations that go to the 
Secretary of Commerce, but we pay very close attention directly 
to those ourselves. We respond in writing, trying to explain 
the best we can, limitations we may have in some cases and 
instances where we agree and think we can implement what they 
have recommended and perhaps some where we disagree and why we 
might disagree.
    Mr. Clay. Can you provide with examples of recommendations 
made by REAC committees that the Bureau cannot act on and how 
the Bureau communicated its determination to the REAC members?
    Mr. Kincannon. Yes, sir, we certainly can.
    Mr. Clay. Give me an example. Can you give me one?
    Mr. Kincannon. No. I can't tell you offhand one that we did 
not agree with, but I can provide in writing, examples where we 
have disagreed and the explanation that we gave back to the 
committee.
    Mr. Clay. Tell me this. What do you think? What would be 
some of the limitations then of the Bureau to meet the 
recommendations made by the REAC?
    Mr. Kincannon. Well, limitations might be laws or 
regulations regarding hiring or limitations in our ability to 
provide certain types of training. It is really difficult for 
me to say in the abstract.
    I often sit in on the portions of the meetings where there 
is open discussion of members. I usually do not sit in on the 
drafting of the recommendations, but I try to catch the ideas 
that are being suggested and discuss those directly with staff 
so that they pay close attention to them.
    Sometimes a rationale would be that we have tried doing 
that in the past and it did not work or conflicted with some 
other goal that we had at the same time.
    Mr. Clay. Why do you believe there is a perception, real or 
otherwise, among at least some REAC members that the Bureau is 
not responding to their concerns in a timely manner?
    Mr. Kincannon. We are not very prompt about responding to 
returns--that is true--to recommendations because of the 
process that is needed to explore the significance of them. 
Sometimes we have to undertake testing to see what the effect 
actually would be of implementing that so that we can make sure 
we know the basis of our answer.
    The process of going through that is lengthier than it 
ideally should be, I am sure, but we do get back to them in 
writing about what they have suggested.
    Mr. Clay. Mr. Kincannon, it is well established that GS-14 
and 15 positions are in the pipeline for advancement to senior 
management. What actions has the Bureau taken to increase the 
number of minorities in management, particularly at the GS-14 
through senior executive levels, and what are the retention 
rates for minorities in these grades?
    Mr. Kincannon. We have taken a variety of steps. First of 
all, making sure that our pipeline of entry level recruits is 
well stocked to the extent of our ability with members of 
minority groups so that they can gain work experience and have 
the evaluation of different supervisors which prepares for 
their evaluation and either additional training or promotion 
when opportunities occur.
    I am glad to say that the number of minorities in GS-14 has 
gone up over the last 5 years from 99 to 122. That is 20.5 
percent to 23.5 percent. That is a significant accomplishment, 
I believe.
    In GS-15, the number has gone up from 34 to 46 or from 17.5 
percent to 23.5 percent.
    Mr. Clay. How diverse is your organizational chart?
    Mr. Kincannon. Well, it looks pretty diverse. The 
organizational chart are heads of divisions or offices, a good 
many of whom are SES members and about a third are minorities 
or women and, of course, there is an overlap between minorities 
and women.
    Mr. Clay. How diverse is the group of regional directors?
    Mr. Kincannon. Half of the regional directors are 
minorities or women.
    Mr. Clay. I see. Thank you for that response.
    Mr. Davis.
    Mr. Davis of Virginia. Mr. Chairman, thank you very much.
    Director Kincannon, let me just start with you.
    In a July 9, 2007 field hearing on reducing under-count in 
the Hispanic community, the Bureau said it will encourage local 
hiring efforts to ensure that it hires enumerators with the 
relevant language skills to work in the Nation's diverse 
neighborhoods.
    What were the challenges from census 2000 in hiring 
enumerators with diverse language skills and what are you doing 
different in 2010.
    Mr. Kincannon. Large language groups.
    Mr. Davis of Virginia. Turn your microphone on.
    Mr. Kincannon. For numerous language groups, people who 
speak Spanish or other fairly widely spoken languages, I think 
we did not have severe barriers in hiring enough people locally 
to meet those needs.
    For isolated language groups--a small Indian tribe or a 
small immigrant group concentrated in a big city--we might have 
more difficulty, but I believe in every case we satisfactorily 
were able to recruit the people needed to enumerate or explain 
the program to others.
    We continue that same theme of trying to make sure that we 
recruit locally and identify people with the right language 
skills.
    Mr. Davis of Virginia. You recently had dress rehearsal 
activities that have already taken place, is that correct?
    Mr. Kincannon. Yes, sir.
    Mr. Davis of Virginia. In terms of hiring enough staff with 
relevant language skills, were any particular insights gained 
on how that would be applied to future hiring practices?
    Mr. Kincannon. I haven't seen the evaluation of the dress 
rehearsal. The only part we completed so far is the address 
canvassing part which does entail some interaction with the 
public but is not the major demand on language needs.
    In the phase that occurs next spring, where we have mailed 
out questionnaires and then we have to respond, go back to 
households that do not return them by mail, that is where the 
major need is for language skills. I have not seen an 
evaluation based on the profile of those that we hired.
    Mr. Davis of Virginia. For the 2000 census, the Bureau 
relied on a regional partnership program, and I know you plan 
such a program for 2010, but the Department of Commerce hasn't 
allocated funding to this program for fiscal year 2008. What is 
the impact of not funding the regional partnership program for 
fiscal year 2008?
    Mr. Kincannon. Well, one has to deal with the overall 
priorities of the Government and the constraints on money. If 
there were enough money for everything everybody wanted to do, 
I would say we should definitely start that program in 2008. 
But in the overall scheme of things, that does not seem.
    Mr. Davis of Virginia. You are doing a good job of 
defending the Department. What is the impact? If you don't fund 
it, what does that mean?
    Mr. Kincannon. Only 6 percent of the funding for the 
partnership program was allocated in the year ending in 2008 
for the previous cycle. So we are not about a major impact. We 
will just concentrate it mostly in 2009 and 2010.
    Mr. Davis of Virginia. Thank you.
    Mr. Scire, in the GAO's April 2007 report, Census Bureau 
Should Refine Recruiting and Hiring Efforts and Enhance 
Training of Temporary Field Staff is the name of it. There were 
seven recommendations that were made to the Bureau to improve 
recruiting and training for the 2010 census. The Bureau 
disagreed or recommended no new action on five of them.
    Where do you think the Bureau still needs improvement in 
this area based on its responses to the GAO's recommendations?
    Mr. Scire. The principle or core recommendation of the 
report was that the Bureau assess the factors that explain 
worker performance and the willingness for a worker to stay 
throughout an operation. For that recommendation, we think 
there is more that the Bureau could do to assess those factors, 
to do basically a statistical analysis that might help it 
understand why some workers do well and why some workers stay 
throughout an operation.
    As I was saying in the opening statement, the Bureau tries 
to recruit five times as many as it hires and hires twice as 
many as it ultimately may need because of the turnover.
    My understanding in the address canvassing part of the 
dress rehearsal, the Bureau has had some difficulty attracting 
eligible workers. So with that kind of information, with the 
kind of analysis that we are talking about, they could do a 
better job of targeting that set of workers that are most 
likely to be interested in census work and do well with it.
    Mr. Davis of Virginia. My last question is if you could 
describe how the Bureau trains enumerators once they have hired 
them. How do they train them?
    Do they use videos or lectures and how long does it and 
what did your observers say when they attended these training 
session?
    Mr. Scire. Yes. It depends on what the operation is, how 
long the training. We observed training that took I believe it 
was 5 days worth of training, and it essentially is a verbatim 
technique where those that are hired first become crew leaders 
and they actually conduct the training. They read from a manual 
verbatim.
    The Bureau believes it is important to maintain that sort 
of consistency in the training across the country. We think 
there is more that the Bureau can do to tailor the training to 
the circumstances of the local area.
    For example, we understand that in Austin, TX, and we 
observed training there, that enumerators were being trained on 
how to enumerate mobile homes. Conversely, in Cheyenne, SD, 
enumerators are also getting training on mobile homes, but in 
addition to that training on how to enumerate in city blocks. 
So we think that they could devote more time within their 
training to what the local demands are.
    There also, I think, is a need for a greater emphasis in 
training on dealing with reluctant respondents. This is 
particularly true for non-response followup where, at the 
outset, you are working with a group of persons who have 
decided not to return a survey form, so there is going to be 
some reluctance at the outset.
    Mr. Davis of Virginia. But it is a 5-day period, right?
    Mr. Scire. Yes.
    Mr. Clay. Thank you, Mr. Davis.
    Mr. Scire, you know that the Bureau's succession plan is 
tied to the Federal Government's opportunity to change the 
diversity of the SES corps through new appointments.
    Were there best practices that you identified at other 
agencies that could be applied at the Bureau? Can they be 
applied to hiring activities for the 2010 census?
    Mr. Scire. I think it is important to look at the permanent 
work force and the temporary work force differently. Some of 
what we have read in the Bureau's strategic plan recognizes the 
importance of diversity. It establishes a means for trying to 
improve succession planning in terms of diversity by recruiting 
at universities that a diverse student population.
    But beyond that, so far as the plans that they have for 
accomplishing continuing or increases in diversity or better 
diversity within the SES corps and within the permanent work 
force, there, one would expect to see detailed plans on how you 
move from the strategy into accomplishing the goals that you 
set out for the agency.
    For the temporary work force, we think the Bureau has been 
pretty aggressive in 2000, and their plans, their goals for 
2010 are the same. I mean they really are trying to reach out 
within the local communities to hire within that community for 
the temporary work force, and we think that is important, that 
does help with eliciting support in response to the 
questionnaires and also can be helpful in terms of recruiting.
    Mr. Clay. Thank you.
    GAO recommended that the Bureau take steps to make the 
partnership program more accountable and performance-oriented. 
In your opinion, what changes are necessary to accomplish this, 
particularly with respect to recruitment and hiring?
    Mr. Scire. Well, for the recommendations that we made on 
the partnership program, we are focused more on the monitoring 
of the individual programs that are conducted in each of the 
LCOs and by the regions, and so we thought there is more that 
the Bureau could do in terms of monitoring those activities, 
keeping accounts what were funded by in-kind contributions.
    We also thought that there was an improvement in terms of 
training that they could do for the partnership specialists on 
what are some of the better practices that worked in the 
partnership program across the country.
    Mr. Clay. Let me ask you about the contracting issue. GAO 
has reviewed the Census Bureau's RPF for the communications 
contract. The Bureau believes the current requirement that a 
contractor have expertise in advertising to minority 
communities is sufficient to ensure the inclusion of minority 
contractors. Do you agree with that?
    Mr. Scire. I think that is just a starting point. There are 
a couple things. One, there is that provision that there is a 
requirement in the contract that the prime contractor and the 
subcontractors have experience in marketing and reaching out to 
a population that is traditionally under-counted, and so I 
think it is important for the Bureau to carefully review and 
weigh what evidence these offerers have to support that 
argument.
    The other is so far as subcontracting goals that are laid 
out, that is a factor that they are considering in reviewing 
the various proposals. So we think it important that the Bureau 
weigh carefully those, what the prime contractors are 
promising, but maybe even more importantly is to monitor what 
they are actually doing and to keep close track of what 
accomplishments the prime contractor is reaching with regard to 
the subcontracting goals.
    Mr. Clay. Thank you for that.
    As a followup, Director, is there a process or system in 
place that will adequately monitor not just the advertising, 
the communications contract, but also other contractors, prime 
contractors with the census?
    Mr. Kincannon. Yes, sir. In the case where there are 
requirements for a certain proportion to go to smaller, 
disadvantaged businesses, if the contract, the prime contractor 
fails to achieve that goal, the amount paid to that contractor 
will be reduced. So their profit margin will be reduced if they 
fail to meet that goal.
    Mr. Clay. As you are probably aware, in the 2000 
communications contract, there were instances where the prime 
contractor had actually established their own minority 
subcontractor. In some circles, that is called a front company. 
I would hope that there would be any shenanigans like that in 
this 2010 communications contract.
    If that was the case in 2000, which you had no 
responsibility for, I would hope that was just a one time 
occurrence and that it won't be a habit as far as the 2010 and 
future censuses are concerned.
    Mr. Kincannon. It certainly won't be. It won't be a habit 
of ours in overlooking that, and I will review the plans we 
have made to make sure that we are dealing with reality and not 
some kind of Potemkin firm.
    Mr. Clay. Let me ask you about the Federal acquisition 
regulations which require Federal agencies to measure 
attainment of the goals that contractors set forth in their 
subcontracting plans.
    Generally, if a contractor award is expected to exceed 
$550,000, the contractor has to establish a subcontracting 
plan. In the plan, the contractor has to agree that small 
businesses, veteran-owned small businesses, service disabled 
veteran-owned small business, HUD-owned small businesses, small 
disadvantaged businesses and women-owned small businesses will 
have the maximum practicable opportunity to participate in 
contract performance consistent with this efficient 
performance.
    The FAR also states that the contractor's failure to make 
this effort results in an imposition of liquidated damages.
    How does the Bureau track its contractors implementation of 
subcontracting plans and goals?
    Mr. Kincannon. Mr. Chairman, I don't know the details of 
how that is tracked, but we have a very conscientious 
procurement office that follows the guidelines laid down by the 
Commerce Department and I am sure all of the FAR regulations as 
well. I will look into that, and if you want some followup 
information on that, I will make sure we get the experts down 
there.
    Mr. Clay. Would you provide this committee in writing with 
the process and procedure of how the followup will take place 
and how it is taking place now with the contracts that have 
already been let?
    Mr. Kincannon. Yes, sir, we will.
    Mr. Clay. Thank you.
    Mr. Director, it has been recommended that the Bureau do an 
assessment of its needs and resources for the 2010 census and 
develop a plan that includes a recruitment plan. Has the Bureau 
conducted such an assessment?
    Mr. Kincannon. Well, we have assessed our planned and 
anticipated workload and the number of people of different 
types of skills in different parts of the country that we are 
going to need, and we have a recruiting plan that responds to 
that in that detail. We have to be prepared in that way. We 
can't just go out and start asking people if they want to work 
for us.
    We know we have to advertise in certain kinds of channels. 
We know we have to get down to community groups to talk to 
local leaders including local elected officials about our needs 
so that they can encourage and direct, bring people's attention 
to these jobs and that they can fulfill them.
    Mr. Clay. And so, that has been integrated into your 
overall plan?
    Mr. Kincannon. Yes, sir.
    Mr. Clay. At the subcommittee's hearing on April 24th, you 
stated that to meet staffing needs for the 2010 census, the 
Bureau would seek a waiver for non-citizens as was done for the 
2000 census.
    This subcommittee has since learned that the Bureau has 
decided against seeking the waiver. Can you explain why, as 
well as how the Bureau plans to meet its recruiting and hiring 
goals without the waiver?
    Mr. Kincannon. I may understand this imperfectly, Mr. 
Chairman, but I did not think we needed the waiver if we 
needed, had special skill needs such as language that could not 
be filled without that kind of exemption.
    Mr. Clay. All right. Thank you very much.
    Let me thank this panel for your testimony and your 
responses. This panel is excused, and we will call forth the 
second panel.
    Mr. Kincannon. Thank you, Mr. Chairman.
    Mr. Clay. Thank you.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before they testify.
    [Witnesses sworn.]
    Mr. Clay. Let the record reflect that the witnesses 
answered in the affirmative.
    You will each have 5 minutes to make an opening statement. 
Your complete written testimony will be included in the hearing 
record.
    The yellow light in front of you will indicate you have 1 
minute remaining, and the red light will indicate that your 
time has expired. If you don't notice the light, I will notice 
it for you.
    On our second panel, we will hear from Rosa Rosales, 
national president of the League of United Latin American 
Citizens [LULAC], and welcome.
    Ms. Rosales. Thank you.
    Mr. Clay. Leigh A. McGee, Chair of the Census Advisory 
Committee on the American Indian and Alaska Native Populations, 
thank you for being here.
    Dr. Bernie Miller, Chair of the Census Advisory Committee 
on the African American Population, welcome.
    Deeana Jang, policy director for the Asian and Pacific 
Islander American Health Forum, thank you for coming today, and 
Stephen J. Pemberton, chief diversity officer and VP for 
diversity and inclusion at Monster Worldwide, Inc.
    I welcome all of you and thank you for being with us today.
    We will start with Ms. Rosales. You may begin.

   STATEMENTS OF ROSA ROSALES, NATIONAL PRESIDENT, LEAGUE OF 
 UNITED LATIN AMERICAN CITIZENS; LEIGH A. MCGEE, CHAIR, CENSUS 
  ADVISORY COMMITTEE ON THE AMERICAN INDIAN AND ALASKA NATIVE 
    POPULATIONS; DR. BERNIE MILLER, CHAIR, CENSUS ADVISORY 
  COMMITTEE ON THE AFRICAN AMERICAN POPULATION; DEEANA JANG, 
  POLICY DIRECTOR, ASIAN AND PACIFIC ISLANDER AMERICAN HEALTH 
 FORUM; AND STEPHEN J. PEMBERTON, CHIEF DIVERSITY OFFICER AND 
  VICE PRESIDENT, DIVERSITY AND INCLUSION, MONSTER WORLDWIDE, 
                              INC.

                   STATEMENT OF ROSA ROSALES

    Ms. Rosales. Mr. Chairman and representatives of the 
subcommittee, my name is Rosa Rosales. I am the national 
president for the League of United Latin American Citizens 
[LULAC], and I am very honored to appear before you today to 
testify on behalf of the LULAC members nationwide to discuss 
the Census Bureau's efforts to prepare the 2010 decennial 
census and achieve a diverse work force.
    LULAC is the oldest and the largest membership-based 
organization, civil rights organization in the United States. 
It was founded in 1929.
    LULAC advances the economic condition, educational 
attainment and political influence, health and civil rights of 
the Hispanic Americans through community-based programs, 
operating more than 700 councils nationwide, concentrated in 32 
States. In its 78 years of history, LULAC has worked to bring 
about many of the positive social and economic changes that 
Hispanic Americans have witnessed.
    Throughout history, LULAC has fought for voting rights and 
full access to the political process and equal educational 
opportunities for Hispanic children. It has been a long and 
often struggle, but LULAC's proud record of activism continues 
to this day as LULAC councils across the Nation hold voter 
registration drives and citizenship awareness sessions, sponsor 
health fairs and tutoring, and raise money for LULAC's National 
Scholarship Fund.
    LULAC has also actively been involved in the Latino 
community outreach for the 1990 and the 2000 censuses and has 
participated in the Congress policy development and public 
education. LULAC served as a designated partner for the Census 
Hispanic Advisory Committee and provided advice at the 
development of the 1990 and the 2000 census programs and 
promotional campaigns including the Spanish questionnaire.
    Since 2000, LULAC members and leadership have continuously 
participated in voter registration drives across the country 
and especially within the States with growing Latino 
populations.
    Throughout its existence, LULAC has forged together 
exceptional nationwide partnerships with the Latino grassroots 
community and with local, State and national political 
leadership. Specifically, our lasting relationships with key 
government agencies, such as the Census Bureau, have 
familiarized us with the types of social, political and 
economic difficulties that arise in data collected and under-
counting segments of the Latino community.
    Mr. Chairman, I have been asked to speak to you today 
regarding the Census Bureau's plan to diversify their 
partnerships and work force, and provide recommendations as to 
how they can improve their efforts.
    To begin with, the 2010 census must provide the most 
accurate count possible for Latinos and other under-served 
communities. As you are aware, the census not only serves to 
apportion congressional seats, but it also establishes billions 
of dollars in Federal funds that set the level of services that 
are available for local and Statewide.
    The 2000 census counted 35.5 million Latinos in the United 
States, an increase of 13 million from 1990. Since the release 
of the last census, the Latino population has surged, becoming 
the largest minority group at 44.3 million people. Our 
community also remains the fastest growing segment of the 
American populace. By 2050, the Latino population is expected 
to top 102.6 million people, constituting a quarter of our 
Nation's population.
    Now, more than ever, the Census Bureau must develop an 
accurate and effective method of counting to ensure that our 
Nation's largest minority group is properly represented in 
government, that our voting rights are secure, that our 
community receives an appropriate allocation of government 
funding for schools, for hospitals, for housing, veterans 
benefits and other urban and regional planning programs.
    For that purpose, LULAC proposes that the following 
concrete steps must be taken: No. 1, the Bureau must fully 
engage communities that are hard to reach such as migrants and 
non-speaking Spanish populations.
    I fear that the anti-immigrant rhetoric, large-scale raids 
and local targeted legislation that have been taking place in 
the last year have created an additional challenge that the 
Bureau must take into account. Unfortunately, tens of thousands 
of migrant families have been broken apart and millions more 
continue to live every day as it might be their last day in the 
United States.
    Local immigration ordinances have denied a wide range of 
government services including medical care, the right to 
schooling and, even closer to home in Prince William County, 
the access to libraries. Restrictions such as these inevitably 
lead to more discrimination against Latino citizens and 
undocumented populations.
    In a climate of fear and mistrust of all government 
agencies, the Census Bureau must respond by doubling its 
efforts to reach out to the most vulnerable members of our 
community.
    No. 2, in order for the Census Bureau to regain the trust 
of the Latino migrant community and attain an accurate count, 
it must develop effective written messaging and public service 
announcements in Spanish that raise awareness of the census and 
its importance and guarantees confidentiality and privacy 
mandates throughout the process.
    If the community is alerted that they are protected by the 
Federal statutes, then it will be far more likely to fully 
participate in the census count. This message must be spread 
through radio and television programs. It must also create easy 
to read materials for appropriate under-counted populations and 
languages.
    Community-based organizations such as LULAC can provide the 
extra assistance to the development of culturally sensitive 
tools and written materials.
    No. 3, the Bureau must also negotiate with the Secretary of 
Homeland Security and the U.S. Immigration and Customs 
Enforcement [ICE], to halt its enforcement raids throughout the 
census process.
    The raids will dramatically undermine the counting process. 
ICE's predecessor, INS, committed itself during the last two 
censuses to adapt their enforcement in the appropriate manner. 
LULAC calls on ICE to do the same for the 2010 census.
    No. 4, part of the Bureau's to partner with the community-
based organizations must consist of strategies to eliminate the 
under-counting of minority communities.
    The Census Bureau has estimated that it under-counted at 
least 3 million Latinos in the 2000 census. While we commend 
the Census Bureau for improving its performance on the 1990 
under-count by 4.9, the under-count still varies dramatically 
in troubling ways between geographic areas, particularly in the 
areas of predominantly minority neighborhoods. Such was the 
case in the city of Los Angeles, CA, as investigated by Paul 
Ong and Doug Houston in their Center for Regional Policy 
Studies.
    [The prepared statement of Ms. Rosales follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. Ms. Rosales, we are going to stop you there, OK, 
and I appreciate it.
    Ms. Rosales. Oh, I am sorry.
    Mr. Clay. I appreciate it.
    Mr. Davis of Virginia. Your statement is in the record.
    Mr. Clay. We have your entire statement, and I want to give 
the rest of the panel a little time to present theirs.
    Ms. Rosales. Yes, that is fine. I want to thank this 
committee, and I didn't realize I was taking so long. My 
apologies.
    Mr. Clay. I realize you have to leave early, but thank you 
so much for that testimony.
    Ms. McGee, you may proceed.

                  STATEMENT OF LEIGH A. MCGEE

    Ms. McGee. Good afternoon, Chairman Clay and members of the 
committee.
    My name is Leigh Ann McGee, and I am honored to represent 
my committee as the chairman of the Alaska Native and American 
Indian Populations Advisory Committee.
    I thank you for this opportunity to share our perspectives 
regarding the Bureau's recruitment, training and hiring 
strategies for 2010. These strategies have consequences vital 
to the successful national enumeration of our population.
    We are compromised of unique peoples and cultures. This 
requires unique strategies in achieving an accurate count. No 
other group of U.S. citizens has a comparable relationship with 
the Federal Government. The diverse cultures, languages, 
geography and socioeconomic situations of our people reflect 
the complexity and challenges faced by the Bureau in 2010.
    Our committee recognizes work force diversity as a vital 
component to achieving an accurate count of our population, and 
we appreciate today's focus.
    I have three keys points. First, our committee has made 
recommendations to the Bureau concerning staffing and 
partnership strategies for the 2010 census. I highlight a few 
of those key ones.
    Presently, the Bureau's total work force is just over 
13,000 of which 146 or 1.1 percent are American Indian/Alaska 
Native. This level has been increasing slightly since 2005. Our 
committee recommends an increased American Indian/Alaska Native 
staffing at all levels of the organization.
    During two studies, the Bureau gained information directly 
from tribal representatives about the partnership program and 
about enumerators and interpreters. I highlight those two 
studies.
    First, the Denver region's 2003 focus group study found 
consensus that communication between the Bureau and tribes 
could be improved by making the partnership specialist a 
permanent position and more tribal consultation. Next, the 
Bureau's findings in a 2006 census test at the Cheyenne River 
Reservation aided in a better understanding of the need for 
tribal liaison specialists in hiring and training Native 
enumerators and interpreters.
    This information informed our committee's recommendations 
which follow: Our committee recommends the hiring of 
partnership specialists no later than the beginning of 2008. 
Our committee recommends an increase of Native enumerators for 
2010. We believe that the enumerators and the partnership 
specialists are the critical link and without them the work of 
the Bureau is largely ineffective in our communities.
    Our committee recommends regional office hiring of 
interpreters as a top priority for the 2010 census, especially 
on Indian reservations and in rural villages.
    Our second key point is that the Bureau has worked 
conscientiously with our committee, demonstrating 
responsiveness to our concerns, requests for information and 
suggestions for strategies. Key evidences are the leadership 
commitment that we have seen, the highest level of the 
organization has informed our committee's work, and they are 
personally involved in the link between the Bureau and the 
tribes.
    Tribal consultations, the Bureau has planned at least 12 
consultations that are going right now in preparation for 2010 
and also the Bureau's American Indian/Alaska Native policy 
statement which recognizes tribal sovereignty and focuses the 
Bureau's commitment to work with federally recognized tribes.
    My last key point is that our committee recommends that the 
Bureau utilize multiple networks, old and new, to recruit, hire 
and train qualified American Indian/Alaska Native enumerators 
who know the local Native communities and know them culturally, 
socially and linguistically.
    Our first point under that area is to begin targeted 
recruitment efforts now. It takes time to build staff in our 
hard to reach communities.
    Next, work with established and new partners on a national, 
regional and local level. For census 2000, the Bureau 
successfully used outreach efforts and partnership 
relationships to reach our communities. Many of these 
relationships have been sustained, and now is the time to renew 
the efforts.
    The census resources at regional and local levels should be 
committed now for planning, implementing and monitoring the 
hiring of Native qualified individuals. Tribal consultation 
should be followed up. The Bureau should use the tribal 
consultation meetings to ask how to best find qualified 
enumerators and followup on these recommendations.
    And, finally, use an ongoing communication channel about 
the opportunities available through local media and contacts.
    In conclusion, I hope that my testimony is helpful to this 
committee's oversight of the Bureau's hiring practices. We have 
accomplished many objectives by working together, but much work 
remains.
    Thank you, Mr. Chairman. This concludes my remarks.
    [The prepared statement of Ms. McGee follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Ms. McGee.
    Dr. Miller, you may proceed.

                   STATEMENT OF BERNIE MILLER

    Dr. Miller. Mr. Chairman, thank you for the opportunity. 
Good afternoon to you and also the Ranking Member Turner, who I 
think he stepped out, and other distinguished members of the 
subcommittee.
    My name is Bernie Miller. I am the pastor of New Covenant 
Fellowship Church in Chattanooga, TN, as well as chairman of 
the Census Bureau's African American Advisory Committee.
    I am honored to have the opportunity to testify before the 
Subcommittee on Information Policy, Census and the Committee on 
Oversight and Government Reform on the critical issue related 
to the challenges and the opportunities that we face 
implementing the Census Bureau's recruitment, training and 
hiring strategies for the 2010 census that promotes development 
and the advancement of minorities within the U.S. Census 
Bureau.
    Winston Churchill, Prime Minister of Great Britain during 
World War II, earned a reputation as the king of the verbal 
comeback. He loved verbally sparring with his main political 
adversary, Lady Astor.
    On one occasion, Lady Astor told Churchill, ``Sir, if I 
were your wife, I would put arsenic in your tea'' to which 
Churchill responded, ``Lady Astor, if I were your husband, I 
would drink it.'' [Laughter.]
    No one was armed with a better comeback than the Census 
Bureau's Director, Mr. Louis Kincannon. At our 2007 May 
meeting, I personally asked Mr. Kincannon why wasn't Marvin 
Raine's position, Associate Director of Field Operations, 
filled with another African American. His comeback was there 
was no one qualified that was Black available.
    His comeback was shocking and incomprehensible. Why are 
there no qualified Blacks?
    The Bureau prides itself in its recruiting abilities. If no 
one is qualified to fill the lowest level senior position, 
whose fault is it? Who is responsible for preparing the work 
force for these openings?
    If the Bureau wanted to fill vacancies with qualified 
Blacks, they need not look any further than from within. Inside 
the Bureau, there are over 25 Blacks qualified and classified 
rather as GS-15 employees. There are 186 male and 390 female 
employees in the GS-7 through 12 category.
    I applaud the Bureau for having an African American in 
charge of the Bureau's facilities. I applaud the Bureau for 
having an African American in charge of human resources. I 
applaud the Bureau for having an African American in charge of 
budgets.
    These are great support positions, but unfortunately these 
heads have no say in what goes on in the major programming 
areas of the census such as the 2010 decennial, the ACS, the 
community partnerships, demographics or geography. There are 
currently no Blacks in leadership positions in those areas. 
Those are programming areas.
    The lack of African Americans representing the interests 
and concerns of our community in these decisionmaking positions 
with the Census Bureau has long-term consequences for the 
quality of life of our population. The implications of the 
situation are much larger than quotas or racial balance, and 
are the benchmark by which all discussions, decisions and 
policies are made that will impact our people for decades.
    The need for the recruitment and promotion of minorities 
into decisionmaking roles, outreach, as well as the need for 
contracting opportunities that help small, Black-owned 
businesses was raised at our 1991, 1994, 1995, 1997, 2004, 
2005, 2006 and again at our 2007 spring meeting in May.
    Like Winston Churchill, the Bureau has always been armed 
with a quick comeback.
    The Bureau has devised a great strategic plan that calls 
for maintaining a highly qualified and motivated work force. 
Unfortunately, many Blacks are not motivated to apply for 
various executive level positions because the perception is 
they will not be seriously considered.
    The FBI has a little motto within its ranks of members and 
it said, it is this: Better a hook than five in the book.
    They may have a five rating, but unless they have a hook on 
the executive level, someone that they know that can bring them 
into the Bureau, they will not be hired. I believe that is the 
same case that is permeating the Census Bureau.
    There is a saying, cream rises to the top. Regrettably, at 
the Census Bureau, the cream of the crop African Americans 
employees aren't rising as fast and/or as far as their White 
counterparts or Hispanic counterparts. There seems to be a 
glass ceiling of some sort.
    The Bureau also stated that it wanted to recruit, inspire, 
manage and retain a highly qualified diverse work force at 
entry level, mid career and senior levels. If that is true, why 
didn't they find a Black to replace Mr. Raines?
    I have much more to say, but it is in the record.
    I would like to conclude with this. To achieve an objective 
and a strong work force, we are asking that the Bureau hire 
qualified African Americans in decisionmaking positions in the 
following areas: the community partnerships program, senior 
executive service or manager on the 2010 decennial and the ACS, 
American Community Survey staff.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Miller follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Dr. Miller.
    Ms. Jang, you may proceed.

                  STATEMENT OF DEEANA L. JANG

    Ms. Jang. Thank you, Mr. Chairman and committee members, 
for the invitation to comment on the Census Bureau's 
recruitment, hiring and training for the decennial census.
    My name is Deeana Jang, and I am the policy director for 
the Asian and Pacific Islander American Health Forum, a 
national advocacy organization based in San Francisco, whose 
mission is to improve the health and well-being of Asian 
Americans, Native Hawaiians and Pacific Islanders.
    The Census Bureau in conducting census 2000 worked hard on 
outreach initiatives in collaboration with many national 
community education outreach projects. While these efforts 
proved to be effective and are to be commended, there are 
lessons to be learned from implementation of those initiatives.
    Planning and preparation for the census 2010 will also have 
to address the changing demographics the United States has 
experienced since the last census, including the rapid growth 
of recent immigrants particularly in areas of the country where 
there were none before. These emerging communities of recent 
immigrants will be particularly hard to reach.
    Another challenge to consider is in the aftermath of 
September 11th and the growing number of States and local 
governments seeking to further restrict immigrants from 
accessing government services; many immigrants are reluctant to 
seek services or disclose personal information to the 
government. The Census Bureau will need to affirmatively 
address these factors in its planning and preparations for 
census 2010. We, therefore, make the following recommendations 
for the Census Bureau.
    First of all, strong leadership with a commitment to a 
diverse work force, community partnerships and building trust 
with hard-to-count communities is absolutely necessary.
    The Census Bureau should establish national staff positions 
to act as liaisons to the Asian American and Native Hawaiian 
and Pacific Islander communities as well as the other minority 
groups. Similar positions were created during the 2000 census 
for Latinos, including a position that served as the primary 
liaison between the Bureau and the Latino community.
    The Census Bureau should be commended for establishing the 
Racial and Ethnic Advisory Committees. These advisory 
committees are extremely useful in establishing a relationship 
and mechanism for these communities to interact with the Bureau 
and share information.
    The Census Bureau needs to ensure that the communications 
contractor for the 2010 census includes ethnic media outlets 
and subcontracts with community-based organizations, small 
businesses and individuals experienced in outreach to diverse 
racial and ethnic communities for recruitment and hiring of 
census personnel for the 2010 census.
    We are concerned that the Bureau has decided to use a 
single communications contractor. While requirements that the 
contractor utilize subcontractors with experience in reaching 
diverse racial and ethnic communities can be written into the 
contract, the Bureau will have limited ability to monitor 
whether the contractor is effectively utilizing these 
subcontracts.
    Having direct contracts with community-based organizations, 
small businesses and individuals with demonstrated experience 
and established trust with hard to count communities, including 
ethnic and racial minority groups, will be much more effective.
    The Census Bureau should immediately request a waiver from 
the Office of Personnel Management to allow the hiring of work-
authorized non-citizens to meet the need for bilingual 
personnel. Given the challenges of reaching recent immigrant 
communities, including language barriers and lack of trust with 
government agencies, it is essential that the Bureau make 
efforts to reach out to a large pool of potentially qualified 
applicants from these communities, who have the necessary 
language skills.
    The Census Bureau should ensure that the test required to 
be taken by applicants for census jobs are translated to the 
primary languages spoken most frequently by limited English-
proficient persons in the United States, taking into account 
regional needs for specific languages.
    In order to ensure a diverse and culturally competent work 
force, the Bureau should conduct an assessment of its needs and 
resources and develop a plan that includes strategies to 
recruit a work force to meet these needs. The Bureau should 
consider the demographics of the populations most under-counted 
in the 2000 census and the demographics of each community.
    Recruitment and hiring plans should be developed and 
monitored by senior officials in consultation with the advisory 
communities and minority-serving organizations that take into 
account the needs and current resources of each region, and 
identify local community partners to help identify the most 
effective ways to reach qualified individuals from the targeted 
communities.
    Community partnership is essential in the development of 
the outreach and recruitment plans, and the Census Bureau needs 
to begin these partnerships now. We support robust funding of 
the community partnership programs starting in fiscal year 2008 
to ensure that the Census Bureau's recruitment and hiring goals 
are met.
    The Census Bureau acknowledges the value of a strong 
partnership program. However, it has not provided a specific 
plan other than to say it will be addressed in fiscal year 
2009. Waiting until fiscal year 2009 is unacceptable as the 
relationships that need to be built need to be created 
immediately in order to have the most successful recruitment 
and hiring of local workers especially in emerging communities.
    In conclusion, while the Census Bureau has built a basis 
for an improved count in 2010 from its experience in 2000, it 
needs to step up immediately to address the changing 
demographics and environment of fear and mistrust of government 
that will jeopardize the goal of full participation by all 
persons in America.
    Thank you.
    [The prepared statement of Ms. Jang follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Ms. Jang.
    Last but not least, Mr. Pemberton of Monster, Inc., and it 
is pretty evident that he is not a member of REAC or within 
government, but we wanted to present this perspective from 
outside of government to hear just how the private industry 
tackles these issues. Please proceed.

               STATEMENT OF STEPHEN J. PEMBERTON

    Mr. Pemberton. Thank you, Mr. Chairman and distinguished 
members of the subcommittee, for the opportunity to testify 
before you this afternoon.
    My name is Steve Pemberton. I am chief diversity officer of 
Monster.com, the leading global online careers property. I also 
serve as vice president of diversity inclusion for the company 
and in that capacity have full operational responsibility for 
the diversity and inclusion business unit specifically focused 
on helping employers diversity their work force.
    I have been specifically asked to describe private sector 
best practices in the hiring, training and utilization of human 
capital resources. In my dual role at Monster, I have the 
wonderful opportunity to see how organizations approach this 
very important topic but an equally valuable opportunity to 
represent how the diverse work force itself approaches this 
topic, and certainly that is one of the first best practices I 
can share.
    Successful organizations do not look at the issue of 
diversity and inclusion simply in the context of who they must 
serve but in the transcendent nature of becoming a better and 
stronger organization.
    When I consider the context of our discussion today, I am 
mindful of a great debate that occurred in these hallowed halls 
in 1874. It was regarding the constitutionality of this 
Nation's first civil rights bill, a bill so important in its 
time that we would not see another for over 80 years. It was a 
source of great anxiety in a Nation still struggling to come to 
terms with the debilitating effects of slavery, and yet there 
was one voice that rose above the din.
    His name was Robert Elliott, a Representative from South 
Carolina. By those in opposition, he was charged with self-
interest, believing that his ardent support of the civil rights 
bill could quite possibly only stem from the fact that he was 
of African descent. His response was the following: ``I regret, 
sir, that the dark hue of my skin may lend a color to the 
imputation that I am controlled by motives personal to myself 
in my advocacy of this great measure of national justice. Sir, 
the motive that impels me is restricted by no such narrow 
boundary but is as broad as the Constitution. I advocate it, 
sir, because it is right.''
    We don't talk that way very much anymore, but the lesson 
the Representative was trying to import upon us has not lost 
its relevance. What we discuss here today is fundamentally a 
matter of internal consistency, a message that might be 
reflected in a simple question. Are we in deed what we say we 
are in purpose?
    Were he living in today's time and if he worked in the 
private sector, Representative Elliott would surely have 
amended this observation. One of the strongest realizations the 
private sector has come to in the last 5 years is that securing 
and maintaining a diverse work force is not simply a matter of 
the right thing to do. The right thing to do is indeed a 
powerful axiom, eloquent in its nature, timeless and boundless 
in its calling.
    However, there is a more practical question. When hasn't 
diversity and inclusion been the right thing to do? When 
haven't the issues of access, equality and opportunity been 
important?
    They have always been here in this great Nation of ours, 
and yet we clearly have lost our way.
    The private sector no longer sees diversity and inclusion 
through the narrow and blinding lens of corrective action but 
through the broader and more detailed view of competitive 
advantage. As the CEO of Procter and Gamble observed, ``My 30 
years in business and my 23 years of Procter and Gamble have 
convinced me that a diverse organization will out-think, out-
innovate, and out-perform a homogenous organization every 
single time.''
    The 21st century has brought with it a new reality for 
corporate America. They are in the business of diversity 
whether they want to be or not. If they intend to maintain and 
acquire new customers, if they intend to extend shareholder 
value and increase market share, they will have to learn how to 
reach this emerging consumer segment that is more diverse and 
has greater purchasing power than any generation before it. Any 
organization ignores these realities at their own peril.
    Private sector organizations that succeed with diversity 
and inclusion start simply by talking about it differently. 
Those that are progressive see a diverse work force as 
necessary. Those that do not treat it as optional.
    Progressive organizations believe this should be owned by 
the collective, regardless of whether or not diversity is in 
their title or responsibility. Those who do not believe that 
progress lay with a singular individual who often has little 
resources.
    Those who succeed see diversity as a strategy for which 
there is significant accountability. Organizations that 
struggle see diversity and inclusions primarily as a matter of 
tolerance for which there is little accountability.
    And perhaps most importantly, successful organizations see 
diversity as a way of achieving maximum productivity and 
innovation, for while it has always been true that great minds 
think alike, it is equally true that one of those minds is 
redundant.
    You will not hear a successful company in the private 
sector say there is not diverse talent available. Indeed, most 
will do the primary and secondary research that shows this is a 
myth. Even if they believe this to be true, they will go create 
the pipeline that they feel they need as one company in the 
banking industry did when they launched a new scholarship for 
undergraduate students that rewards those who can create the 
most practical and inspirational ideas for innovation and 
improvement in the fields of business, science or visual arts.
    In other words, private sector best practices aren't really 
best practices at all. They are next practices.
    This concludes my oral statement. Again, I thank you for 
the opportunity to testify before the subcommittee today, and I 
look forward to answering any questions you might have 
regarding commercial best practices.
    [The prepared statement of Mr. Pemberton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Mr. Pemberton, and I want to 
thank the entire panel.
    Ms. Rosales. I have to excuse myself. I have plans.
    Mr. Clay. You may. I am sorry you couldn't stay around, but 
thank you.
    I will defer to my friend from Virginia, the ranking 
member. He has a previous engagement. Proceed.
    Mr. Davis of Virginia. Thank you. I have to leave, but I 
did want to take this opportunity to ask a couple questions.
    Let me ask Mr. Pemberton. How many resumes do we have on 
USA Jobs or on the OPM lists that we have, any idea how many 
resumes?
    Mr. Pemberton. I do not and don't have that data available 
to me.
    I can tell you that through the Monster.com Web site, again 
it is one of the strategies I think that we see a lot of 
corporations undertake, simply mainstreaming diversity into 
core processes.
    Mr. Davis of Virginia. How many resumes do you have on 
Monster.com?
    Mr. Pemberton. We will have anywhere from 5,000 to 7,500 
diversity resumes a day. Twenty-five percent of the traffic 
coming to Monster is diverse, one the most diverse online 
career properties.
    Mr. Davis of Virginia. That is on a day. So if you search 
it from a list, how many diverse resumes would you have on 
there total?
    Mr. Pemberton. Three point six million.
    Mr. Davis of Virginia. Any knowledge why the Census Bureau 
isn't utilizing and tapping into this for particularly 
temporary hiring but for some of the other positions we talked 
about?
    Mr. Pemberton. I do not know.
    I can tell you that perhaps that is a reflection of 
Monster. We have a recently just mainstreamed diversity and 
created that resume data base.
    Mr. Davis of Virginia. I think the reason we wanted you to 
be here today to show diversity is good business. It is not an 
entitlement. It is just good business. It is good business for 
the census if we want an accurate count. Doing the same old, 
same old isn't going to get us where we need to be.
    If you have that many resumes on there at one time, diverse 
resumes, you ought to be able to find somebody somewhere to do 
the job almost anywhere in the country, wouldn't you think?
    Mr. Pemberton. I would particularly when we consider why 
the diverse work force itself goes to Monster. The Internet 
provides a level of anonymity and opportunity and equality, so.
    Mr. Davis of Virginia. Has Monster had to work with 
national organizations and companies to do like a national and 
local hiring project before?
    Mr. Pemberton. It is our business. Our corporations hire 
Monster specifically to help them find the qualified and 
talented work force, and we have seen in the last couple of 
years in particular a specific focus on diversity.
    Mr. Davis of Virginia. You have heard the testimony from 
the Census Bureau, and you have heard from some of the other 
groups that are up here that want to get an accurate census and 
recognize the only way to doing that is to get a diverse work 
force for a number of different reasons.
    Drawing from your experience with Monster, what steps do 
you think the Government and the Census Bureau in particular 
could be taking to accomplish and enable our goal of getting a 
more diverse work force?
    Mr. Pemberton. Certainly, the perspective perhaps I have 
not heard so far in the testimony is going online in 
particular. If we looked at the Hispanic population, they are 
migrating online faster than any other segment of the 
population, particularly when we look at the objectives that 
are before the Bureau around scale and in particular trying to 
find a passive candidate.
    Those that will go to Monster.com are looking for an 
opportunity. It has been part of our strategic initiative to 
make sure that we find those who might not necessarily be 
thinking about opportunities and provide them contextually 
relevant.
    Mr. Davis of Virginia. I was intrigued by your drawing the 
distinction between having equal employment opportunities and 
having a diverse work force. They are two different things. One 
is hey, you come in, we will give you a fair shake. The other 
is going out and actively recruiting in different communities.
    In the case of the census, it is only good business to do 
that. We have to communicate with a wide array of people that 
we are not going to be able to do it with just an average work 
force. It is going to have to be diverse. It is going to have 
to be multilingual. It is going to have to be able to talk to 
people.
    Does Monster work with private sector companies who grow a 
work force and maintain a diversity pipeline on a routine 
basis?
    Mr. Pemberton. We do. We do.
    Mr. Davis of Virginia. Do you think these same strategies 
could work with the Federal Government? Any reason that you 
know of why they couldn't?
    Mr. Pemberton. I do not.
    Whether it is an earlier strategy of working, starting as 
early as the eighth grade which is when we really ought to 
start talking about career progression, I think education, 
branding, awareness. Some of those strategies that have worked 
in the private sector, particularly in the last five to 7 
years, when they have gone through a phase of things simply not 
working and once they undertook, I think, a bit more tactical 
approach, becoming much more grassroots, having measurability 
and accountability, things changed for them. A lot of that was 
driven by their business opportunities as well.
    Mr. Davis of Virginia. Thank you.
    Mr. Chairman, it just looks to me if it is to be a 21st 
century census, we need to get 21st century technology and 
practices to get it in. Once again, being an equal opportunity 
employer isn't enough. We need to outreach. It is going to mean 
the net and all these others.
    I thank you for your testimony. I thank the other witnesses 
too. You have underscored something that I think on both sides 
of this, we recognize, and that is we need to have a very, very 
diverse work force, very multilingual work force to identify if 
we are really going to get people to, in some cases, come out 
of the shadows and be identified for an accurate census.
    So thank you very much.
    Mr. Clay. Thank you too, Mr. Davis, for your participation 
in today's hearing.
    Mr. Pemberton, as you may know, a GAO examination of 
diversity management practices found nine leading practices 
including top leadership commitment to the vision of diversity, 
accountability of leaders through the linking of performance 
assessment and compensation, and succession planning to 
identify a diverse pool of candidates for future leadership 
positions.
    How much weight would you assign to each of these factors 
and how do you think they impact the Federal Government?
    Mr. Pemberton. Mr. Chairman, to the degree that I can 
represent not just the private sector and their best practices 
but also the work force that we are trying to attract, the 
factors that you just listed are, from their standpoint, the 
primary questions they have.
    I can tell you that in my own hiring within my own company, 
I would not sit in front of an Hispanic applicant whom I was 
looking to attract to my work force without talking with them, 
to them about how their career could advance within my 
organization. They are coming to me with that question already, 
and my failure to answer that is in essence opening the door 
for another.
    I think there is a tendency at times to look across 
agencies, look across businesses for best practices. I really 
think we ought to go to that work force we are looking to 
attract and have them tell us what matters to them.
    So an organization that does not have diversity in the 
senior levels of the organization is, in essence, making a 
statement to that work force that they are trying to attract, 
and succession planning is a natural companion to that.
    Mr. Clay. How successful do you think Monster, Inc. could 
be in matching up not just at the Census Bureau but I guess 
throughout the Federal Government--and maybe you do this now--
applicants that have the requisite skills at the Bureau and 
other agencies require for core positions?
    How successful could Monster, Inc. or a company like yours 
be in matching up these individuals with positions in the 
Federal Government?
    Mr. Pemberton. As perhaps you might expect, I am gong to 
say unequivocally. Prior to Monster, the notion of going online 
and looking for a job simply did not exist.
    I think it is part of the culture and the character of the 
organization that anyone in the world can come to Monster, 
looking for an opportunity. What we find is that the actual 
diverse work force is one of the primary reasons they come to 
Monster. If you are concerned that you are not going to be 
counted or that your gender or race is going to be held against 
you, you can be as anonymous as you choose to be online.
    So our intention and motivation has been now to not only 
present the diverse work force but to convince them that 
organizations, be it the Bureau or other companies, are genuine 
in their commitment to diversity. We have succeeded at that. 
That is not philosophical or theoretical on my part. It is 
simply what we do every single day.
    Mr. Clay. I guess you have had to deal with the issue of 
hard to employ populations where the unemployment rate tends to 
be higher than within the general population, and I guess you 
have to be sensitive to that too.
    Mr. Pemberton. We have to for a couple of reasons. When you 
consider the business that Monster is in, that is exactly what 
our clients, in all candor, pay us to do, to provide, to 
convince and to inform.
    Mr. Clay. So they come looking for diverse work forces now?
    Mr. Pemberton. They absolutely do.
    Mr. Clay. Really?
    Mr. Pemberton. As does the work force itself. We look 
within specific industries who know. They do their own 
availability analysis of populations. They, like the Bureau, 
are really trying to locate. Well, where are these individuals? 
What is motivating them in particular?
    Conversely, I think there is a tendency to equate diversity 
online and perhaps assign that primarily to issues of access, 
but if you think about what being online provides you. Any of 
us here can access just about anything that we want, any type 
of information. Opportunity exists online which is why it 
attracts a diverse work force and particularly coming to 
Monster because you come there to look for a job.
    Mr. Clay. I do an annual career fair in my home district in 
St. Louis, and I think I will engage Monster, Inc. in the 
concept of a year-round way to help those hard to employ 
constituents. We will take that up at another day, but thank 
you so much for your responses.
    Ms. McGee, the advisory committee recommended that the 
Bureau hire interpreters as a top priority.
    You stated that Cathy Lacy Illian, the Denver Regional 
Director, in responding to this recommendation at a meeting, 
said she understood the importance of hiring and training 
American Indian and Alaska Native enumerators and interpreters, 
and that she had the authority and would hire the AIAN 
interpreters immediately if the need arises during the 2010 
census. Does the AIAN have a plan for monitoring this effort?
    Ms. McGee. No, sir, we don't have a plan to monitor it. It 
did come up in our May discussion, and of course our committee 
was very concerned that during the census that you cannot wait 
when you need an interpreter. You have to have them now.
    So she did assure us that she had the authority and would 
hire them on the spot and that was throughout the census, all 
regional directors would have such authority to do so. But we 
do not have a way of tracking that.
    Now we do have a meeting hopefully coming up, all REAC 
committees in October, and we plan to followup on each of the 
recommendations we made in May. So that would be one way to 
followup.
    Mr. Clay. I would hope that you all would develop 
evaluation criteria by which to measure the success of the 
Bureau's strategy and share that success or whatever the 
outcome with this subcommittee.
    Also, in response to the AIAN recommendation that the 
Bureau work with colleges to recruit AIAN employees, the Bureau 
stated in part that most tribal colleges do not support the 
academic requirements for the Bureau's mission critical 
positions. So the Bureau's recruitment visits have been limited 
to feeder colleges.
    Has the advisory committee worked with the Bureau to 
identify those tribal colleges that have the academic 
requirements set by the Bureau?
    Ms. McGee. Yes, sir, we have followed up. We recommended 
that the Bureau work with the organization that oversees the 
tribal colleges--I am looking for that now to get the name 
right--and the census did followup and meet with that 
organization of tribal colleges. We have not followed up, 
though, since then to see if progress has been made on changing 
the curriculum or adding to the curriculum at those colleges.
    However, we did also ask the census to expand the net. 
There are several other colleges that have populations of 
Native students, and we have asked them to recruit at those as 
well where the curriculum was what the census needed.
    Mr. Clay. You were informed by the Bureau that it will 
reinstate the tribal liaison program for the 2010 census as 
part of the partnership effort and utilize American Indian 
specialists to work one on one with tribal leaders.
    How successful was the tribal liaison program for the 2000 
census. Can you comment on it?
    Ms. McGee. Mr. Chairman, I was not on the committee at that 
time. However, several of our committee members worked directly 
with the census and census numbers and so forth. What has been 
part of the discussion during the committee meetings was that 
in 2000 many of our members that the partnership was the most 
critical of all programs that the census utilized.
    Also in the 2003 focus group that the Denver region did, 
there were 31 individuals that represented 30 tribes that 
stated that the partnership program was what they thought was 
key to the connection to the tribes in the Denver region. So 
that is why we have focused a lot on the partnership program, 
and that is also why we emphasized at our last meeting, we 
don't want the census waiting to hire these partnership 
specialists. They are key to our success.
    Mr. Clay. They need to ramp up now then?
    Ms. McGee. We want them to ramp up now.
    Mr. Clay. Thank you for that response.
    Ms. Jang, I share your concern about the impact of the data 
breach of confidential information about Japanese Americans 
during World War II. I have expressed my concern about this 
indiscretion to Director Kincannon and the Bureau.
    Let me ask you. What impact do you think the data breach 
could have on the Bureau's recruitment efforts when it comes to 
the data breach and how it impacted that segment of our 
population?
    Ms. Jang. I am not sure how much impact. I am not sure how 
much impact it may have on the recruitment for the personnel, 
but I think it will have an impact on the responses from the 
communities because unless they are assured of confidentiality, 
they are going to be suspicious.
    The incident with World War II is just one of many 
instances where confidentiality has been breached in the 
government context. For example, in the Chinese Confession Act 
during the fifties, it was like an amnesty program where people 
were invited to come forward and legalize their status, and 
people were deported as a result of applying for that program. 
So once word spreads, the community is less likely to want to 
have contact with the Government, and that could impact the 
recruiting as well.
    Mr. Clay. To your knowledge, has the Bureau reached out to 
national organizations that provide services for Asian American 
communities for advice on how to address any potential adverse 
impact that what the Bureau does has on these communities?
    Ms. Jang. Not to my knowledge.
    Mr. Clay. That would probably be a good recommendation to 
the Bureau then, wouldn't it?
    Ms. Jang. Yes, I would agree. I would agree that outreach 
should include addressing that issue.
    Mr. Clay. We will address that through this committee with 
the Bureau, that they make an effort to the Asian American 
community because apparently there has been a serious breach of 
trust here on the part of Bureau toward that community. I have 
not witnessed much apology either in all of this or at least 
saying the Bureau is sorry or that it admits that it made a 
mistake.
    Ms. Jang. Yes, Mr. Chairman. I think it has broader impact 
beyond the Asian American community because as I said because 
of the events of September 11th, similar fears exist in the 
Muslim community, the Arab community, etc. So I think that 
concern goes beyond the Asian American community.
    Mr. Clay. Thank you for that.
    Dr. Miller, in your statement, you spoke of an encounter or 
statement that Director Kincannon made about the replacement of 
Marvin Raines. Was that a direct quote from the Director?
    Dr. Miller. Yes, sir.
    Mr. Clay. That was a direct?
    Dr. Miller. The Director said there was no one. The exact 
statement, exact quote was, there was no one; ``There was no 
qualified Black available.''
    That is what he said, and I repeated it to him, and I 
immediately repeated it to a chief that was there. I said this 
is what the Director said, and is that true? They started 
laughing at me, and then they got angry.
    Mr. Clay. Well, this committee will make inquiry with the 
Director for him to explain to us in writing just what the 
contents of that statement were about and perhaps give us a 
clear explanation.
    Dr. Miller. We were at lunch. He had all the REAC chairs. 
They have a private lunch during our spring meeting, and he 
brings us in. We can talk very candidly about things, and I 
raised the race issue then. He pulled me aside after we were 
dismissing, and he walked with me out. He just unloaded and 
very candidly said, well, you know, there were no Blacks 
qualified.
    Mr. Clay. Has the advisory committee worked with the Bureau 
to find or locate qualified African Americans and recommended 
them to it.
    Dr. Miller. We don't get that opportunity. We get e-mail 
blitzes regarding openings, but we don't have an opportunity 
per se to advise anyone directly because they have to go online 
and they have to fill out an application online which prevents 
us from intervening.
    I did at one time ask for one of the Bureau executives if 
they would look at an applicant for me who happened to be 
African American, a very qualified young lady, and I introduced 
them. He told her to go online again and fill out an 
application.
    Well, I mean if I am on the advisory committee and I am 
coming to you, asking you to interview this person, at least 
talk to them about a possibility of an opening to get to know 
the person. I thought it disingenuous that you would send them 
online.
    I could have sent them online, but I thought that because I 
knew someone at the Census Bureau in a capacity that could help 
her, that she could be helped.
    Mr. Clay. Let me ask. Has the African American advisory 
committee recommended that the Bureau formalize and expand the 
recruitment program with historically Black colleges and 
universities? The Bureau's response was that it is working with 
HBCUs to facilitate enabling Goal 5 of the Bureau's strategic 
plan to maintaining a highly qualified and motivated work 
force.
    However, you believe this goal is not being met because 
African Americans at the Bureau are not motivated. How did you 
arrive at the conclusion that African Americans at the Bureau 
were not motivated?
    Dr. Miller. Simply because when you bring somebody into the 
system, into the Bureau, it takes 15 years for that new recruit 
to come in, learn and then be in a position to excel. They have 
a great recruitment program, but the folks that are there, for 
instance, Teresa Anqueira.
    Teresa Anqueira came in at the same time as another African 
American who his name is Jimmy Scott. Both of them were 
employed at the very same time, but Teresa Anqueira, she is now 
the associate on the associate level. Jimmy has never had an 
opportunity.
    They have taken Teresa Anqueira, sent her out to various 
places to help her learn her job so that she could be in a 
position to advance. That is great. I mean that is great for 
Teresa, and I am glad that they did that for her.
    But why just do it for Teresa Anqueira? Why not do it for 
Jimmy Scott?
    Why not do it for other African Americans? Why not do it 
for others that are minorities serving?
    I think that the whole idea here is to get more people that 
look like America on the executive levels, and they do this for 
some select people. It seems that you have to have an inside 
with someone on the executive level in order to be considered, 
be sent to seminars to learn more, so that when they do promote 
you, you already have.
    They have an opportunity to fail more than we do. Several 
of them have failed several times. Teresa, if you look at her 
record, several times she has failed, but they kept picking her 
up, giving her another opportunity to succeed.
    But they have not done that for African Americans. When we 
fail at the Bureau, we are not given an opportunity. We are not 
picked up and given another opportunity to succeed on the level 
that other folks are.
    Mr. Clay. You also stated in your testimony that the 
Advisory Committee on the African American Population requested 
information from the Bureau on the 2000 census contract 
agreements and rules and evaluations or studies on 
decisionmaking dates for census 2000.
    You made a request in 2005 but have not received any 
information. Was more than one request made?
    Dr. Miller. Yes, another request was made in 2006 which 
probably will come out soon. The Bureau will respond to it.
    They did respond in particular. I don't know if I have that 
in my notes here.
    In 2006, we recommended that the Bureau grant multiple 
awards for advertising contracts, identify minority-owned 
businesses. Is that the one you are referencing?
    Mr. Clay. No. It was another one, but anyway that was my 
next question.
    Here is what I want you to do is to get with committee 
staff and tell us what they have not responded to, and we will 
make the official request for the information as you requested 
initially.
    On the communications contract, Dr. Miller, what 
explanation did the Bureau give you about separating the 
contract?
    Dr. Miller. They said it wasn't feasible is what I 
concluded for the outreach. Let me see here. Yes, the outreach.
    Basically, they said that the 2010 Census Communications 
Acquisitions Team concluded that it would not be feasible for 
the Bureau, Census Bureau to serve as an integrator of separate 
contracts for various components such as a time-sensitive 
campaign, i.e., public relations, advertising, multimedia, 
interactive marketing, etc.
    It says that the Census Bureau will rely on the expertise 
of a prime contractor with demonstrated experience integrating 
projects that are similar in size, scope and complexity to the 
2010 census communication campaign.
    Great comeback, great. I mean it sounds great.
    There is a term that they use within the Bureau that I 
think you may be familiar with called critical buy. A critical 
buy is when I, as a person on my advisory committee, can call 
the Bureau and say, look, in my community if you would do a 
critical buy with this minority newspaper, I believe that we 
can get them to maybe put in a story that would be geared 
toward helping the census get an accurate count from the hard 
to reach population. That is called a critical buy. They will, 
in turn, take some moneys and direct it to that minority 
businessman.
    Right now, we don't have that pipeline. We don't have that 
two-way communication to make that happen right now for various 
reasons, one, because the money has not been appropriated and, 
two, the partnership program is kind of up in the air. It takes 
15 months in order to get the partnership program off the 
ground, and to start in 2009, you know we are behind the eight 
ball.
    It takes 15 months to develop these relationships. I 
believe that Deeana had the best suggestiion, and that was to 
make those partnership positions, partnership specialist 
positions permanent, a permanent piece of the Census Bureau. 
Why go out every year and try to find a partnership specialist 
when you know you are going to need them even during the ACS?
    I mean we are taking a snapshot every year of about 3 
million people. You do need somebody out there that can go into 
the community to reach the hard to count persons. So why just 
wait every 10 years?
    Mr. Clay. Thank you for that.
    Ms. Jang, the Asian advisory committee has made several 
recommendations to the Bureau regarding the recruitment and 
hiring of Asian American candidates including collaborating 
with strategically selected higher education institutions with 
high Asian enrollment to establish a work force diversification 
pipeline program. This recommendation was made in April 2005.
    In your opinion, has the Bureau made significant progress 
in implementing the recommendation?
    Ms. Jang. Again, not to my knowledge. According to their 
response to that advisory committee report, they said they had. 
I believe they said they had gone to three colleges with 
significant Asian American populations.
    Mr. Clay. Three colleges.
    Ms. Jang. Yes.
    Mr. Clay. What factors are essential to the Bureau's 
efforts to recruiting and retaining Asian American employees? 
What do you think is a successful formula for the Bureau at 
this point?
    Ms. Jang. Well, I think if they did have a permanent 
community partnerships program, that would really help in 
bringing members of the community into the Bureau. That would 
definitely be a significant step in that direction.
    Mr. Clay. So that would help with the diversification of 
that work force at the Bureau at all levels?
    Ms. Jang. Yes, and they also need better data on the Asian 
American populations. I am not. I haven't seen their data, but 
I know as presented in the testimony earlier, we are very 
concerned about the Native Hawaiians and Pacific Islanders and 
the lack of even any kind of representation at all.
    In terms of Asian Americans, I think they also need to even 
disaggregate further into specific ethnic groups that are not 
being reached by the census. So there may be an overabundance 
of Filipino or Chinese census workers, but in terms of some of 
the other newer populations, Southeast Asians and South Asians, 
for example, they may not have good representation.
    So I think they need to do a better work force analysis of 
their Asian American as well as Pacific Islander work force.
    Mr. Clay. Thank you for that.
    Mr. Pemberton, in the Census Bureau's strategic plan, they 
state that in order to meet with major strategic objectives, 
they must first accomplish their enabling goal to maintain a 
high quality and motivated work force, and provide the 
environment to support them.
    Drawing from your experience with Monster, what steps 
should the Bureau take to accomplish the enabling goal and what 
pitfalls should the Bureau and Congress be looking to avoid as 
the staffing-up process begins for the 2010 census?
    Mr. Pemberton. Certainly, what we see through the private 
sector is a linking of the four steps that organizations go 
through in securing a diverse work force. You brand yourself as 
an employer of choice to a specific community.
    From those branding activities, you have a measure, return 
on investment. I have spent these dollars, and I expect this to 
have specifically contributed to the diverse slate of 
candidates.
    The third stage is then hiring. So I branded myself and 
from that has come an applicant pool. Now the third phase is, 
well, how effective have I been in hiring these individuals? I 
have heard that referenced several times here in the testimony.
    Then the last stage is perhaps arguably the most critical 
one because it does influence and impact all others which is 
retention because one's ability to retain a diverse work force, 
I think, has a direct correlation and impact upon recruitment. 
Clearly, if you have, regardless of background, if you have a 
very satisfied work force, they become a source of employee 
referrals and can therefore recommend others.
    In terms of pitfalls, I said this quickly prior, but I do 
think jumping right to recruitment and retention without 
gaining an understanding and an assessment of the environment 
itself. Corporations frequently will, and to me it is perhaps a 
very simple question. If I were to walk into any organization 
or agency and just picked out anyone and said and asked them a 
simple question: Why does diversity matter in this 
organization? What is your story?
    What would I hear? Would I hear the same things regardless 
of who I ask or would I hear different things?
    I think often times just jumping immediately to recruitment 
without getting an understanding of how receptive the 
environment is to diversity, whether or not they are on the 
same page relative to diversity.
    I think a companion to that is obviously the lens of 
corrective action. That is perhaps the single biggest change we 
have seen in corporate America. They have, regrettably so. They 
call this an economies of learning which is just a very clever 
way of saying we have made mistake.
    They have been down the road of looking at things simply 
through corrective action, and they have been burned quite a 
few times. Like the soft drink company that decided to 
literally translate a new ad slogan into Japanese, not 
realizing that they were promising these hard-to-win consumers 
that their product would be bringing their ancestors back from 
the dead. That elicits a smile. Some aren't so humorous.
    So they have been down this path, and they have learned the 
hard way that there is a difference between diversity and 
inclusion. Diversity is simply a reflection of how many people 
are in the organization. Inclusiveness is a reflection of 
whether or not those individuals are at the table, making 
decisions and in the private sector whether they are at the 
product table, the sales table, the marketing table. Certainly, 
that is where the diverse work force is looking as well.
    Mr. Clay. Thank you so much for that.
    We have been joined by our colleague from New York, Mrs. 
Carolyn Maloney, a member of this subcommittee.
    Mrs. Maloney, proceed if you have questions.
    Mrs. Maloney. Thank you very much, Mr. Chairman. I 
apologize. We were in a markup in Financial Services.
    I want to applaud your leadership and for working hard to 
get us an accurate count. Nothing is more important in terms of 
proper allocation of funds to State and local governments and 
really redrawing the seats, apportionment seats for Congress. 
It is a major investment that we make, and it takes place every 
10 years.
    I want to congratulate the leadership of the chairman. I 
told him he had a $40 million day. Yesterday, was it? He had a 
$40 million on the floor when we worked to restore to the 
census $40 million that is being cut out of it, and we achieved 
that in defeating one amendment and getting a consensus on both 
sides of the aisle to restore another $30 million that had been 
cut out in the committee processes.
    So I want to commend the chairman. I haven't had many $40 
million days, but that was an important day for the census, and 
we worked hard together to make that happen.
    I want to be here to support his efforts on an accurate 
census and on having a diverse and inclusive one. Another area 
that we have labored together on is discrimination against 
women and minorities. To the extent that we can control that in 
terms of Federal agencies, particularly one that is as 
important as the census that must go out and count so many 
people and be sensitive to so many communities to get them to 
work with us to get the most accurate count possible.
    I just commend him for calling this hearing and for having 
this GAO report.
    I appreciated the gentleman's comments that there is a big 
difference between inclusive and diverse. I just would like him 
to elaborate further. We can go out and demand the census and 
other agencies be diverse. That is right. But how can we make 
it inclusive so that women and men and minorities are all at 
the same table and equally at those tables and that their 
voices are equally heard?
    What are some initiatives that we could do to foster 
inclusiveness? We can demand a head count. We have done that.
    But how can we foster a management mentality that includes 
and then strengthens themselves by having the viewpoints of 
everybody at the table?
    Mr. Pemberton. Yes, I think for the private sector, they 
have answered that question by saying they will make ownership 
of this issue collective.
    I have the humblest distinction of being the chief 
diversity officer for Monster, but as my wife and daughter 
often remind me, I am not quite the feminist that I think I am. 
So while I have an ability perhaps to represent the African 
American population and even then not be wholly so, I think 
this notion somehow that you can hire a single individual and 
expect them to speak to all things diverse is a perilous path.
    I think accountability being broadly dispersed starting 
from the top, which is how organizations themselves operate, 
there is a very high level of accountability.
    I also think that they are very aggressive about creating 
environments where individuals who are perhaps not familiar 
with a particular culture, gender, language have the ability to 
say simply, I do not know. I think that there is a distinction 
between simply not knowing and then acting on a certain level 
of ignorance.
    So aggressive training is how I would quickly answer that.
    Mrs. Maloney. I would invite every member of the panel if 
they would like to speak up on this issue. Thank you.
    Dr. Miller. Yes, I would.
    Mrs. Maloney. Dr. Miller.
    Dr. Miller. If you have an opening at a company and you 
know that you need an African American or Hispanic or whatever, 
get the six qualified folks in the room, the top, the last or 
the six qualified people that have risen to the top for that 
particular position. Get them in the room. You know that if you 
choose one of those six people that one of them will be great 
for that position.
    If you know you need an African American, have six in the 
room. Have one African American, have one that happens to be 
female or whatever the persuasion, and I think you can really 
put somebody in a place without really offending anyone. You 
know that all six are qualified, and you can choose from the 
six.
    You can have HR send me the top six and make sure that I 
have the top six look like this. If the top six look like that, 
then you can choose from the top six.
    You can say, well, look, I need to have an African 
American. Well, here are the top six. Well, from that six, you 
know you can choose that African American or you can choose an 
Asian or Hispanic or whatever. I don't think it is rocket 
science. There is a way you can do it.
    Mrs. Maloney. Any other comments?
    Now if the women don't speak up, I am going to be 
disappointed.
    Ms. Jang. I just want to say I am really glad people made 
the distinction between equal employment opportunity and 
inclusion because I think you have to be intentional if you are 
going to meet your goals of diversity. Just saying everyone has 
equal opportunity is not going to work.
    So I think strategies that really are intentional and 
designed to welcome that pool of qualified applicants because 
there are qualified applicants out there who are from 
communities of color is really an important ingredient.
    I want to correct something I said on the record earlier. I 
found the notes about which colleges that the Census Bureau has 
been to, and they responded to the Asian advisory committee 
that they visited over 70 colleges and universities each 
semester to recruit for their core occupations and that 
includes 13--I missed the first one--13 schools that have 
significant Asian American student populations.
    Mr. Clay. I see. Thank you.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Mr. Clay. Thank you.
    Just one last question for Ms. McGee. One last question, in 
your testimony, you cite several examples of how the advisory 
committee is working with Bureau staff to facilitate the 
recommendations of the committee.
    One was the sharing of information about higher grade staff 
openings. The Bureau sends announcements to the members of the 
committee, and committee members pass along the information to 
individuals and organizations who might be interested in the 
positions.
    Have you received any feedback on how successful this 
effort has been?
    Ms. McGee. No, sir, I have not received any information 
back, and in fact these questions about the feedback and 
followup, I have made several notes.
    I think that it is definitely a problem for our REAC 
committees and our conversations with the census. We really 
don't have a good process for doing this followup, and we try 
to get our former recommendations and go through them, but so 
much happens so quickly. I have made a note to make sure that 
we set a process and do better followup.
    I was wondering when I was preparing that testimony. Has 
anybody been hired from the census that we forwarded 
information to? Has anything ever come of this? And I do not 
know the answer to that.
    Mr. Clay. We should probably explore that.
    Let me thank the entire panel for your participation in 
this hearing.
    Ms. McGee. Thank you.
    Mr. Clay. As you heard the bells go off, this is like 
school. That is an indication that we have to change classes 
now. We are going to vote. [Laughter.]
    I want to thank the panel again for shedding light on what 
I think is an important subject, which if we are successful 
with our efforts to actually diversify and include in the 
Bureau's structure throughout, we will have a more successful 
2010 census than 2000. This will not be the last that you hear 
of this issue.
    So thank you very much for your participation today.
    That concludes this hearing.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
